App. 1
CORRECTED: MARCH 26, 2020
RENDERED: OCTOBER 31, 2019
NOT TO BE PUBLISHED
Supreme Court of Kentucky
2019-SC-000093-MR
APPELLANT

JERRY W. WELLS

ON APPEAL FROM COURT OF APPEALS
CASE NO. 2018-CA-001467-OA
WARREN FAMILY COURT NO. 14-CI-00479

V.

HON. CATHERINE HOLDERFIELD,
JUDGE, WARREN FAMILY COURT,
DIV. IV,

APPELLEE

AND

ROBBIN NELSON; ROBERT
REAL PARTIES
ANDREW SHARP, JR.; HEATHER IN INTEREST
ANNE GREENE SHARP; A.K.S,
A MINOR CHILD; AND R.A.S. Ill,
A MINOR CHILD
MEMORANDUM OPINION OF THE COURT
AFFIRMING
This appeal from the denial of a writ of mandamus
stems from a Warren Family Court child custody action
involving A.K.S. and R.A.S., III., the minor children of
Robert Andrew Sharp, Jr. and Heather Anne Greene
Sharp. Jerry Wells is married to Robbin Nelson, the
paternal grandmother of the children, but was not a
party to the action below. In May 2014, Robert and

App. 2
Heather Sharp, while still married1, entered into an
agreed order that permanent de facto custody of their
children be placed with Nelson.
In 2015, Heather filed motions seeking to modify
custody and set visitation. The family court estab­
lished a visitation schedule for the parents at that
time. Citing medical and educational reasons, Nelson
sought and was granted permission, over Heather’s
objection, to move with the minor children to Nash­
ville, Tennessee.
Approximately six months later, Nelson and Wells
both filed a petition to adopt the children in Tennessee.
In April 2016, before the adoption proceedings could
be finalized, Heather filed a motion for contempt in
Warren Family Court against Nelson for her failure to
allow visitation. The Warren Family Court entered an
order asserting continuing, exclusive jurisdiction over
the child custody issues in accordance with the Uni­
form Child Custody Jurisdiction Enforcement Act
(UCCJEA).2
Around September 2016, Heather filed a motion
to modify custody in the Warren Family Court. The
Tennessee court stayed the adoption proceedings
1 Robert and Heather later divorced.
2 UCCJEA § 202(a). The UCCJEA is a codified uniform state
law drafted by the National Conference of Commissioners on Uni­
form State Laws for the purpose of determining which state has
jurisdiction to decide custody decisions. Kentucky adopted the
UCCJEA through Kentucky Revised Statutes (KRS) 403.800 to
403.880.

App. 3
pending the outcome of the Kentucky custody determi­
nation. In July 2017, the Warren Family Court granted
temporary custody to Heather. On November 28, 2017,
the family court granted a motion filed by Heather and
entered an order which prohibited contact between the
minor children and Nelson.
A final custody hearing was scheduled in Warren
Family Court for October 12, 2018. It was not until
September 20, 2018 that Wells filed a motion, without
an accompanying petition, seeking to intervene in the
custody action. Wells asserted he should have been
named as a de facto custodian along with his wife,
Nelson, and therefore should be a party to the action.
On October 8,2018, Wells filed a pro se petition for
a writ of mandamus with the Court of Appeals and re­
quested immediate relief of the family court’s ruling.
The Court of Appeals denied the request for emergency
relief on October 8, 2018. The next day, Judge Holderfield entered an order denying his motion to intervene
and set a final hearing on the modification of custody.
It does not appear from an online review of CourtNet3
that Wells filed a motion to alter, amend or vacate the
order denying his motion to intervene, nor does it ap­
pear that he filed a notice of appeal. Wells filed a mo­
tion for reconsideration in the writ action, and it was
denied on October 12, 2018. While the writ action
was still pending before the Court of Appeals, Judge
3 CourtNet is an online search tool used to find civil and crim­
inal cases. CourtNet is not an Official record. It offers detailed
case information from the proceedings of each individual case.

App. 4
Holderfield entered findings of fact and conclusions of
law on December 20, 2018.4 On January 9, 2019, the
assigned Court of Appeals panel entered an order
denying the extraordinary writ. In its order, the Court
of Appeals declined to address several of Wells’ claims,
including his request to disqualify Judge Holderfield
from presiding over the case, a request he also argues
before this Court. We agree with the Court of Appeals
that as a non-party without standing or a stake in the
family court proceedings, Wells did not have standing
to seek disqualification of the judge. Wells timely
sought review regarding the writ of mandamus in this
Court.
Wells argues for granting his writ of prohibition,
claiming that the Warren Family Court is acting out­
side of its jurisdiction and there is no remedy through
an intermediate court. There are two classes of ex­
traordinary writs available to litigants.5 The first
class of writs applies when a lower court is acting out­
side of its subject matter jurisdiction and there is no
adequate remedy through application to an intermedi­
ate court.6

4 Information gleaned from CourtNet step sheet of underly­
ing custody action. It is unclear from the record if this was a final
judgment or not. However, a review of the Court of Appeals dock­
ets show that Robbin Nelson has filed an appeal, (Robbin Nelson
v. Heather Anne Sharp, et al) with an associated Circuit case
listed as Warren Family Court, Judge Holderfield, 14-CI-00479.
5 Hoskins v. Markle, 150 S.W.3d 1, 10 (Ky. 2004).
6 Id.

App. 5
Wells claims that the family court lost subject
matter jurisdiction after the children lived in Tennes­
see for six (6) months, arguing that Tennessee became
the children’s home state pursuant to the UCCJEA.
However, even though Nelson, Wells and the children
moved to Tennessee, Kentucky could and did retain ex­
clusive, continuing jurisdiction over the child custody
and visitations matters. When the action commenced
in May 2014, all parties were Kentucky residents, Ken­
tucky entered the initial child custody determination,
and Heather maintained her residency and exercised
parenting time with the children in Kentucky through­
out. Pursuant to KRS § 402.824,
(1) [A1 court of this state which has made a
child custody determination consistent with
KRS 403.822 or 403.826 has exclusive, contin­
uing jurisdiction over the determination until:
(a) A court of this state determines that nei­
ther the child, nor the child and one parent,
nor the child and a person acting as a parent
have significant connections with this state
and that substantial evidence is no longer
available in this state concerning the child’s
care, protection, training, and personal rela­
tionship [.]
Wells argues that Kentucky lost jurisdiction to
Tennessee, noting that adoption proceedings had been
initiated in Tennessee. However, Williams v. BitteV
held that even a final Georgia adoption decree did not
divest Kentucky of its jurisdiction in a child custody
7 299 S.W.3d 284 (Ky. App. 2009).

App. 6
matter. The court in Bittel opined “Our reading of both
the UCCJEA and PKPA8 persuades us that exclusive,
continuous jurisdiction of the custody matters remains
in Kentucky as long as Bittel resides in Kentucky and
maintains a significant relationship with M.K. (inter­
nal citation omitted).”9 Therefore, the Warren Family
Court was acting within its continuing jurisdiction re­
garding child custody and visitation.
In the alternative, Wells argues that he is entitled
to a writ under the second class of writs. The second
class requires a showing that: 1) the lower court is act­
ing or is about to act erroneously, although within its
jurisdiction; 2) there exists no adequate remedy by
appeal or otherwise; and 3) great injustice and irrepa­
rable injury will result if the petition is not granted.10
The problem with Wells’ argument as to either class of
writs is the same, there is (or was) a remedy available
to him by appeal.
This Court has consistently held that an order
denying a motion to intervene is immediately appealable.11 In City of Henderson v. Todd:
It was well settled under the former Civil
Code that the filing of an intervening petition
8 Parental Kidnapping Prevention Act.
9 299 S.W.3d at 288.
10 Hoskins, 150 S.W.3d at 10.
11 See City of Henderson v. Todd, 314 S.W.2d 948 (Ky. 1958);
Hazel Enterprises, LLC v. Community Financial Services Bank,
382 S.W.3d 65 (Ky. App. 2012); Baker v. Webb, 127 S.W.3d 622
(Ky. 2004); and A.H. v. W.R.L, 482 S.W.3d 372 (Ky. 2016).

App. 7
by an interested party was a matter of right
and a denial thereof was an appealable order.
Civil Rule 24.01 provides that upon timely ap­
plication anyone shall be permitted to inter­
vene in an action under described conditions,
and CR 24.02 permits intervention under
stated conditions. While it would appear that
the denial of a motion for leave to intervene is
interlocutory and not forthwith appealable,
unless intervention is a matter of right we re­
gard an appeal from an order denying inter­
vention under either rule to be proper after
final judgment in the case, even though a
forthwith appeal would have been proper
where intervention was a matter of right un­
der CR 24.01. (internal citations omitted).12
Furthermore, in A.H. v. W.R.L.13, this Court held
that a mother’s former same sex partner asserted a
cognizable custodial interest and, thus, had a right to
intervene under Kentucky Rule of Civil Procedure
(CR) 24.01.14 Similarly, Wells asserts he has a custo­
dial interest in the children because he is Nelson’s hus­
band and helped co-parent the children.
CR 24.01, our matter of right intervention rule,
states as follows:
(1) Upon timely application anyone shall
be permitted to intervene in an action (a)
when a statute confers an unconditional right
12 314 S.W.2d at 951.
13 482 S.W.3d 372.
14 Id. at 375.

App. 8
to intervene, or (b) when the applicant claims
an interest relating to the property or trans­
action which is the subject of the action and is
so situated that the disposition of the action
may as a practical matter impair or impede
the applicant’s ability to protect that interest,
unless that interest is adequately represented
by existing parties.
(2) Anyone possessing a statutory right of
intervention under (l)(a) above, may move the
court to intervene in a pending action and, on
failure of a party to file an objection within ten
(10) days to the intervention and a notice of
hearing on the objection, have an order allow­
ing the intervention without appearing in
court for a hearing.
Significantly, CR 24.03 requires that a pleading be
submitted with the motion to intervene. According to
the family court order denying his intervention, Wells
failed to file a petition with his motion to intervene.
CR 24.03 states as follows:
A person desiring to intervene shall serve a
motion to intervene upon the parties as pro­
vided in Rule 5. The motion shall state the
grounds therefor and shall be accompanied
by a pleading setting forth the claim or de­
fense for which intervention is sought. The
same procedure shall be followed when a
statute gives a right to intervene. When the
constitutionality of an act of the General As­
sembly affecting the public interest is drawn
into question in any action, the movant shall

App. 9
serve a copy of the pleading, motion or other
paper first raising the challenge upon the
Attorney General.
Wells had an opportunity to pursue a direct appeal
regarding the denial of the intervention but has failed
to do so. Consequently, Wells has failed to show a lack
of potential remedy through an intermediate court and
is not entitled to a writ of mandamus. Likewise, as a
non-party, Wells has no standing to assert that Judge
Holderfield should be removed as Judge in the under­
lying case.
For the foregoing reasons, we affirm the Court of
Appeals.
All sitting. All concur.
APPELLANT:
Jerry W. Wells, pro se
Nashville, TN
COUNSEL OF RECORD FOR APPELLEE, HON.
CATHERINE HOLDERFIELD, JUDGE, WARREN
FAMILY COURT, DIV. IV.:
Catherine Rice Gaither Holderfield
Warren County Justice Center

App. 10

COUNSEL OF RECORD FOR HEATHER ANNE
GREENE SHARP, REAL PARTY IN INTEREST, A.K.S.,
A MINOR CHILD, REAL PARTY IN INTEREST,
R.A.S. III, A MINOR CHILD, REAL PARTY IN IN­
TEREST:
Casey Alan Hixson
Hixson Law Office
Bowling Green, KY
COUNSEL OF RECORD FOR ROBBIN NELSON,
REAL PARTY IN INTEREST:
D. Bailey Walton
Lanphear & Walton
Bowling Green, KY
COUNSEL OF RECORD FOR ROBERT ANDREW
SHARP, JR., REAL PARTY IN INTEREST:
Kenneth A. Meredith, II
Bowling Green, KY

App. 11
Supreme Court of Kentucky
2019-SC-000093-MR
JERRY W. WELLS
V.

APPELLANT

ON APPEAL FROM COURT OF APPEALS
NO. 2018-CA-001467
WARREN CIRCUIT COURT NO. 14-CI-00479

HON. CATHERINE HOLDERFIELD, APPELLEES
JUDGE, WARREN FAMILY COURT,
DIVISION IV, ET AL.
ORDER
Appellant’s pro-se motion for leave of court to file
a motion to the lower trial court for correction of the
record, specifically the decree of the order of May 15,
2014, and for the leave to file an amended appellee’s
brief following correction of the lower court records, in
the above-styled action, is passed to the consideration
of the merits of the appeal.
Appellant’s pro-se motion to submit the certified
transcript of the lower court May 6, 2014 hearing in
support of appellant Jerry W. Wells’ standing in his re­
ply brief and motion for leave of court for the CR 60.01
correction of the lower court record, in the above-styled
action, is passed to the consideration of the merits of
the appeal.

App. 12
ENTERED: August _26_, 2019.
/s/ John D. Minton Jr.
Chief Justice

App. 13
Commonwealth of Kentucky
Court of Appeals
NO. 2018-CA-001467-OA
JERRY W. WELLS

PETITIONER

AN ORIGINAL ACTION ARISING FROM
WARREN CIRCUIT COURT
ACTION NO. 14-CI-00479
HONORABLE CATHERINE
RICE HOLDERFIELD, JUDGE,
WARREN FAMILY COURT
RESPONDENT
AND
v.

ROBBIN NELSON, HEATHER
ANNE GREENE SHARP, ROBERT
ANDREW SHARP, JR. A.K.S.,
A MINOR CHILD, AND R.A.S. Ill, REAL PARTIES
A MINOR CHILD

IN INTEREST

ORDER DENYING
MOTION FOR RECONSIDERATION AND
EXTRAORDINARY WRIT
%%

%%

BEFORE: CLAYTON, CHIEF JUDGE; DIXON AND
NICKELL, JUDGES.
Petitioner, Jerry W. Wells, hereinafter Wells, seeks
a writ asserting the circuit court does not have juris­
diction and made numerous erroneous rulings. Simul­
taneously with the petition, Wells filed a motion for
intermediate relief to stay an October 12, 2018

App. 14
hearing. This motion was denied. Wells thereafter filed
a motion for reconsideration. This motion is DENIED.
Wells filed a motion seeking to supplement the writ
with an exhibit that was not previously available. The
motion is GRANTED and the tendered supplement is
ORDERED FILED. Wells has filed a second motion to
supplement his petition with a complaint from an un­
related action against Judge Holderfield. This motion
is DENIED. Heather Ann Greene Sharp, hereinafter
Heather, a Real Party in Interest, has responded ob­
jecting to the petition. Having considered the plead­
ings herein and being otherwise sufficiently advised,
the Court hereby DENIES the petition.
The underlying circuit court case is a child custody
action involving Real Parties in Interest A.K.S. and
R.A.S., III. In 2014, Robbin Nelson, the children’s
grandmother, petitioned for and was granted perma­
nent sole custody of them. Wells is Nelson’s husband
but he was not included in the initial action and was
not named in the custody decree. Heather and Robert
Andrew Sharp, Jr. are the biological parents of the mi­
nor children.
In 2015, Heather filed motions seeking to modify
custody and set visitation. Ultimately, a visitation
schedule was established for the parents. Nelson sought
and was granted permission, over Heather’s objection,
to move with the children to Tennessee but, the visita­
tion schedule was maintained and Heather exercised
her visitation in Bowling Green, Kentucky.

App. 15
In 2016, an adoption action was initiated in Ten­
nessee by Nelson and Wells. Heather filed in Warren
Circuit Court a motion for Nelson to be held in con­
tempt for failure to allow visitation. The Warren Cir­
cuit Court entered an order asserting continuing,
exclusive jurisdiction over child custody issues.
Heather then filed a motion to modify custody. In
2017, the circuit court granted temporary custody to
Heather.
On September 20, 2018, Wells filed a motion seek­
ing to intervene in the custody action. Wells asserted
that he should have been named as a de facto custo­
dian with his wife, Nelson, and therefore, he is a nec­
essary party to the action. The circuit court denied the
motion and set a final hearing on the modification of
custody. This petition followed.
There are two classes of extraordinary writs.
Hoskins v. Maricle, 150 S.W.3d 1,10 (Ky. 2004); see also
Lee v. George, 369 S.W.3d 29, 32 (Ky. 2012). The first
class of writs only applies when the claim involves a
lower court acting outside of its subject matter juris­
diction and there is no remedy through an application
to an intermediate court. Hoskins, 150 S.W.3d at 10; see
also Goldstein v. Feeley, 299 S.W.3d 549 (Ky. 2009). The
second class requires a showing that: 1) the lower court
is acting or is about to act erroneously, although within
its jurisdiction, 2) there exists no adequate remedy by
appeal or otherwise, and 3) great injustice and irrepa­
rable injury will result if the petition is not granted.
Hoskins, 150 S.W.3d at 10.

App. 16
Wells has raised several claims. He argues the cir­
cuit court lacks jurisdiction, the circuit court judge is
biased and should be recused, and the circuit court
judge and Heather’s counsel need to be recused as they
are necessary witnesses. Additionally, Wells argues the
court made the following errors: denying Wells’s mo­
tion to intervene as a necessary party, destroying
Wells’s pleadings, restricting the children from being
in Tennessee, denying requests to have Heather un­
dergo a neuropsychiatric evaluation, and failing to
require Heather to produce the children’s medical rec­
ords. Wells argues that as a non-party an appeal is not
a viable remedy and therefore he is entitled to a writ.
Wells’s arguments fail.
The Court will first address Wells’s claim that the
circuit court erred in denying his motion for interven­
tion and a writ is necessary to remedy the error. Where
the circuit court is acting within its subject matter ju­
risdiction, it is “an absolute prerequisite” to the issu­
ance of a writ that the petitioner demonstrates no
adequate remedy by appeal exists. The Independent
Order of Foresters v. Chauvin, 175 S.W.3d 610,615 (Ky.
2005). “‘No adequate remedy by appeal’ means that
any injury to [the petitioner] ‘could not thereafter be
rectified in subsequent proceedings in the case.’ ” Id. at
614-15 (quoting Bender v. Eaton, 343 S.W.2d 799, 802
(Ky. 1961)).
Herein, the circuit court is acting within its sub­
ject matter jurisdiction. When the action commenced
all parties were Kentucky residents and Kentucky en­
tered an initial child custody determination. Despite

App. 17
the fact Nelson and the children moved to Tennessee,
Kentucky retained exclusive, continuing jurisdiction
over child custody modification because at least one
parent, Heather, remained and exercised her parent­
ing time with the children here in Kentucky. KRS
403.822. The fact Nelson and Wells initiated adoption
proceedings in Tennessee does not change this analy­
sis. See Williams v. Bittel, 299 S.W.3d 284 (Ky. App.
2009) (holding Georgia adoption decree did not divest
Kentucky courts of child custody jurisdiction). Even
assuming the circuit court did err in denying interven­
tion, Wells has an adequate remedy by way of an ap­
peal and therefore this claim fails. See City of
Henderson v. Todd, 314 S.W.2d 948 (Ky. 1958); Hazel
Enterprises, LLC v. Community Financial Services
Bank, 382 S.W.3d 65 (Ky. App. 2012); Bailey v. Bertram,
471 S.W.3d 687 (Ky. 2015).
The Court need not address Wells’s remaining
claims of erroneous discovery rulings and matters of
recusal because, as a non-party without standing or a
stake in the circuit court proceedings, he does not have
standing to seek a writ against the circuit court. Inter­
active Media Entertainment and Gaming Association,
Inc., 320 S.W.3d 692 (Ky. 2010).
Based on the above, the petition for a writ is DE­
NIED.
ENTERED: JAN 09 2019

/s/ Denise G. Clayton
CHIEF JUDGE,
COURT OF APPEALS

App. 18
COMMONWEALTH OF KENTUCKY
8TH JUDICIAL CIRCUIT
WARREN CIRCUIT COURT-DIV. IV
FAMILY COURT
CATHERINE RICE HOLDERFIELD, JUDGE
CIVIL ACTION NO. 14-CI-00479
DE FACTO ACTION
ROBBIN NELSON
v.

PETITIONER

ORDER DENYING JERRY WELLS’
MOTION TO INTERVENE

HEATHER ANNE SHARP and
ROBERT ANDREW SHARP, JR.

RESPONDENTS

This matter having come before the Court upon
Jerry Wells’ Pro Se Motion to Intervene and Motion for
Declaration of De Facto Custodian Status on Septem­
ber 28,2018, the Court having reviewed the entire rec­
ord contained herein, and otherwise being sufficiently
advised:
It is hereby ORDERED AND ADJUDGED Mr.
Wells’ Motion to Intervene and Motion for Declaration
of De Facto Custodian Status is hereby DENIED. The
Court finds Mr. Wells did not comply with CR 24 by
waiting more than four years in which to seek inter­
vention, waiting two weeks prior to the final hearing of
the underlying matter in which to seek intervention,
and he filed no Intervening Petition.

App. 19
This is the 9th day of October

2018.

/s/ Catherine Rice Holderfield
CATHERINE RICE
HOLDERFIELD, JUDGE
WARREN CIRCUIT
COURT, DIV. IV
FAMILY COURT
TENDERED BY:
/s/ Casey A. Hixson
CASEY A. HIXSON
Clerk send copies to:
Casey A. Hixson
D. Bailey Walton
Robert Andrew Sharp, Jr.
RO. Box 632
Bowling Green, KY 42102
Jerry Wells
P.O. Box 159175
Nashville, TN 37215

App. 20
Commonwealth of Kentucky
Court of Appeals
NO. 2018-CA-001467-OA
JERRY W. WELLS
v.

PETITIONER

ON MOTION FOR INTERMEDIATE RELIEF
IN AN ORIGINAL ACTION ARISING FROM
WARREN FAMILY COURT
ACTION NO. 14-CI-00479

HONORABLE CATHERINE
RICE HOLDERFIELD, JUDGE,
WARREN FAMILY COURT

RESPONDENT

ROBBIN NELSON, ROBERT
ANDREW SHARP, JR., HEATHER
ANNE GREENE SHARP, A.K.S.,
A MINOR CHILD, AND R.A.S. Ill, REAL PARTIES
A MINOR CHILD
IN INTEREST
ORDER DENYING MOTION FOR
INTERMEDIATE RELIEF
This matter is before the Court on a motion for in­
termediate relief in an original action by which the
petitioner, Jerry W. Wells, seeks, among other things,
to prevent a custody hearing that is scheduled for Fri­
day, October 12, 2018, in the Warren Family Court. He
also asks this Court to grant him de facto custodial
status of the minor children involved in this matter.
Having considered the motion for intermediate relief

App. 21
and having been otherwise sufficiently advised, the
Court ORDERS that the motion be DENIED.
This original action stems from a custody action
out of Warren County Family Court. Petitioner, Jerry
W. Wells, is the step-paternal grandfather of the minor
children, A.K.S. and R.A.S., III. He is married to real
party in interest, Robbin Nelson, the paternal grand­
mother of the minor children. Real parties in interest,
Robert Andrew Sharp, Jr.1 and Heather Anne Greene
Sharp are the natural parents of the minor children.
In May 2014, Mr. Sharp and Ms. Sharp agreed to
make Ms. Nelson the de facto custodian of the minor
children in Warren Family Court Case No. 14-CI-00479
while they resolved marital and other issues. Since
that time, Mr. Sharp and Ms. Sharp were divorced
through Warren Family Court Case No. 14-CI-00704.
On September 30, 2016, Ms. Sharp filed a motion to
modify custody. On March 21,2017 the Warren Family
Court entered an order granting Ms. Sharp temporary
custody of the minor children. Although this matter
has been ongoing for over four years in Warren Family
Court, Mr. Wells did not move to intervene or seek to
be granted de facto custodial status until September
20,2018—approximately three weeks before a custody
hearing was scheduled to be held on October 12, 2018.
On September 28,2018, the Warren Family Court held
a hearing on Mr. Wells’ motions and made a ruling

1 Mr. Sharp is the step-son of Mr. Wells; Ms. Nelson is
Mr. Sharp’s mother.

App. 22
from the bench denying Mr. Wells’ motions.2 On Octo­
ber 8, 2018, Mr. Wells, pro se, filed a Petition for Writ
of Prohibition/Mandamus and a Motion for Intermedi­
ate Relief pursuant to CR 76.36(4). An order denying
Mr. Wells’ motions to intervene and to be declared a de
facto custodian was entered on October 9,2018.
At this stage, the Court does not adjudicate the
original action; however, the necessity of demonstrat­
ing a likelihood of success on the underlying petition is
implicit in the required showing for CR 76.36(4) relief.
Consequently, the Court must consider whether Mr.
Wells may be entitled to the issuance of a writ. The
standard governing the issuance of an extraordinary
writ is well established:
A writ of prohibition may be granted upon a
showing that (1) the lower court is proceeding
or is about to proceed outside of its jurisdic­
tion and there is no remedy through an appli­
cation to an intermediate court; (2) that the
lower court is acting or is about to act errone­
ously, although within its jurisdiction, and
there exist no adequate remedy by appeal or
otherwise and great injustice and irreparable
injury will result if the petition is not granted.

2 Courts speak “only through written orders entered upon
the official record.” Kindred Nursing Centers Ltd. Partnership v.
Sloan, 329 S.W.3d 347, 349 (Ky. App. 2010). This Court does not
review oral orders. However because a written order was entered
one day after Mr. Wells filed the instant motion, the Court will
consider the motion under the general rational of James v. James,
313 S.W.3d 17 (Ky. 2010).

App. 23
Hoskins v. Maricle, 150 S.W.3d 1,10 (Ky. 2004). Demon­
strating the lack of an adequate remedy by appeal or
otherwise is an “absolute prerequisite” to the issuance
of a writ in cases where the circuit court is acting
within its jurisdiction. The Independent Order of
Foresters v. Chauvin, 175 S.W.3d 610, 615 (Ky. 2005).
Here, the Warren Family Court is clearly acting within
its subject matter jurisdiction. Mr. Wells must there­
fore demonstrate that he has no adequate remedy by
appeal or otherwise. “ ‘No adequate remedy by appeal’
means that any injury to [the petitioner] ‘could not
thereafter be rectified in subsequent proceedings in
the case.’”Id. at 614-15 (quotingSender v. Eaton, 343
S.W.2d 799, 802 (Ky. 1961)).
Denial of a motion to intervene is an issue that
is remediable by direct appeal. See City of Henderson
v. Todd, 314 S.W.2d 948 (Ky. 1958); Hazel Enterprises,
LLC v. Community Financial Services Bank, 382
S.W.3d 65 (Ky. App. 2012); Bailey v. Bertram, 471
S.W.3d 687 (Ky. 2015). Because Mr. Wells has a remedy
by direct appeal, he cannot show a likelihood of success
on the underlying petition for writ of prohibition and
mandamus.
Because Mr. Wells fails to show a likelihood of
success on the underlying petition, the Court ORDERS
the CR 76.36(4) motion for intermediate relief DE­
NIED. The original action will come before a three

App. 24
judge panel of this Court after the expiration of re­
sponse time provided by CR 76.36(2).
ENTERED: OCT 08 2018

/s/ Joy A. Kramer______
JUDGE,
COURT OF APPEALS

App. 25
COMMONWEALTH OF KENTUCKY
8TH JUDICIAL CIRCUIT
WARREN CIRCUIT COURT-DIV. IV
FAMILY COURT
CATHERINE RICE HOLDERFIELD, JUDGE
CIVIL ACTION NO. 14-CI-00479
ROBBIN NELSON

PETITIONER

ORDER GRANTING
TEMPORARY CUSTODY
HEATHER ANNE SHARP and
ROBERT ANDREW SHARP, JR. RESPONDENTS

v.

This matter having come before the Court, the
court having reviewed the entire record contained
herein, and otherwise being sufficiently advised:
It is hereby ORDERED AND ADJUDGED Re­
spondent Heather Anne Sharp is hereby granted tem­
porary custody of the two minor children (A.K.S &
R.A.S. Ill) effectively immediately. The Petitioner shall
deliver the children to Respondent Heather Anne
Sharp at 6:00 p.m. on March 21, 2017, at Sad Sam’s
Fireworks Outlet in Cross Plains, Tennessee, off Exit
112 on Interstate 65.
This the 21st

day of March

2017.

/s/ Catherine Rice Holderfield
CATHERINE RICE
HOLDERFIELD, JUDGE
WARREN CIRCUIT
COURT, DIV. IV
FAMILY COURT

App. 26
TENDERED BY:
Casey A. Hixson
Clerk send copies to:
Casey A. Hixson
Peter Gray Whiteley
Christopher T. Davenport
Marcia Sparks

App. 27
COMMONWEALTH OF KENTUCKY
8TH JUDICIAL CIRCUIT
WARREN CIRCUIT COURT, DIVISION IV
FAMILY COURT
CATHERINE RICE HOLDERFIELD, JUDGE
CIVIL ACTION NO. 14-CI-00479
IN RE: THE VERIFIED PETITION
FOR DEFACTO CUSTODY
THE INTEREST OF R.A.S, III,
a minor child
A.K.S., a minor child
ROBBIN NELSON
V

PETITIONER

-SUA SPONTE ORDER-

ROBERT ANDREW SHARP, JR.
and HEATHER ANNE SHARP RESPONDENTS
This matter, having come before the Court upon
sua sponte review, the Court having had multiple hear­
ings in this action and the family’s related actions, over
the past several years, the Court having been made
aware at a recent hearing that adoption proceedings
have been filed in another state even though the pro­
posed adoptive parent has failed to comply with this
Court’s orders, may be evading service with regards to
a long pending show cause order regarding the court
ordered visitation for the mother of the children, no
UCCJEA hearing has occurred as required by Ken­
tucky Revised Statutes, the Petitioner having obtained
de facto custody under somewhat questionable but

App. 28
reportedly agreed circumstances, and the Court being
otherwise sufficiently advised;
IT IS HEREBY ORDERED that this Court spe­
cifically asserts and retains jurisdiction of this action
and the actions related thereto in Warren Circuit Fam­
ily Court.
This 8th day of June, 2016.
/s/ Catherine Rice Holderfield
CATHERINE RICE
HOLDERFIELD, JUDGE
WARREN CIRCUIT
COURT, DIVISION IV
FAMILY COURT
Clerk distribute copies to all parties:
Hon. John McCracken [for Pet Robbin Nelson]
Hon. Casey Hixson [for Resp Heather Sharp]
Respondent-Robert Andrew Sharp, Jr.

App. 29
IN THE FOURTH CIRCUIT COURT FOR
DAVIDSON COUNTY, TENNESSEE
ROBBI KELLY NELSON
AND HUSBAND,
JERRY WAYNE WELLS,
PETITIONERS,

)

AND

)
)
)
)

ROBERT ANDREW
SHARP, JR.,
CO-PETITIONER,

HEATHER ANNE SHARP,
RESPONDENT.

)

)
)
ADOPTION CASE
NO. 15A118

)
)
)

ORDER APPOINTING GUARDIAN
AD LITEM AND SUSPENDING VISITATION
This Order is entered in response to the Motion of
Petitioners Robbin Kelly Nelson and, Jerry Wayne
Wells and Co-Petitioner Robert Andrew Sharp, Jr. (Mr.
Sharp)/ heard on May 13, 2016 pursuant to Tenn. R.
Civ. Proc. 40A to appoint a Guardian ad Litem in this
cause and to suspend visitation by the Respondent,
Heather Anne Sharp pending observation by the
Guardian ad Litem of the conditions and best interests
of the children sought to be adopted.
Pursuant to Tennessee Code Annotated §36-1116(f)(1), this Court has had exclusive jurisdiction of
all matters pertaining to the children sought to be
adopted in this cause since November 25, 2015, the
date of the filing of the Petition for Guardianship,

App. 30
Termination of Parental Rights and Adoption by the
Petitioners and Co-Petitioner (the “Petition”)
Further, pursuant to Tennessee Code Annotated
§36-l-116(h), the filing of the Petition constituted the
commencement of a custody proceeding for purposes of
the Uniform Child Custody Jurisdiction and Enforce­
ment Act (UCCJEA) codified in Tennessee Code Anno­
tated §36-6-201 et seep, and Tennessee is the home
state of the children in this proceeding. Therefore, this
Court also has had jurisdiction of this child custody
proceeding pursuant to Tennessee Code Annotated
§36-6-216(a) since November 25, 2015, the date of the
filing of the Petition.
Accordingly, any order entered by any other court
after November 25, 2015, including orders by the 8th
Judicial Circuit Warren Circuit Court - Div. IV Family
Court of the Commonwealth of Kentucky, is unenforce­
able for want of jurisdiction.
This Court customarily appoints a Guardian ad
Litem in a contested adoption case, and because the
verified Petition and affidavits filed in this cause raise
concerns regarding the children’s best interests that
may not be adequately protected by the parties, the
Court has determined that separate representation of
the children by a Guardian ad Litem is warranted pur­
suant to Tenn. R. Civ. Proc. 40A. Accordingly, the Court
hereby appoints Valerie M. Cantrell, Supreme Court
No. 14640 as Guardian ad Litem to represent the best
interest of the children in this cause, the cost of which

App. 31
will be born equally by the Petitioners and the Re­
spondent.
The Court also finds that the concerns raised in
the verified Petition and affidavits filed in this cause
justify a suspension of any visitation by the Respond­
ent with the children for a period of two (2) weeks fol­
lowing the entry of this Order so that the Guardian ad
Litem may make a preliminary assessment of the chil­
dren’s best interests with respect to visitation. Such
suspension is hereby ordered and may be extended by
motion of the Petitioners or the Guardian ad Litem.
IT IS SO ORDERED this 17th of May, 2016.
/s/ Philip E. Smith
Philip E. Smith, Circuit
Court Judge
Approved for entry:
/s/ Robert D. Tuke
Robert D. Tuke,
BPR No. 04650
TRAUGER & TUKE
222 Fourth Avenue North
Nashville, Tennessee 37219
615-256-8585
rtuke@tntlaw.net

App. 32
CERTIFICATE OF SERVICE
I hereby certify that on this 16th day of May, 2016, a
copy of the foregoing Order Appointing Guardian Ad
Litem and Suspending Visitation was mailed to:
Laura A. Frost, Attorney for Respondent Heather Anne
Sharp, via U.S. Mail, postage prepaid, at 131A South
Water Avenue, Gallatin, TN 37066, and emailed to
Laura Frost at laura@laurafrostlaw.com; and
Valerie M. Cantrell, Guardian ad Litem, via U.S. Mail,
postage prepaid, at 381 Mallory Station Rd., Ste. 202,
Franklin, TN 37967, and emailed to Valerie Cantrell at
valerie.cantrell22@gmail. com.
/s/ Robert D. Tuke
Robert D. Tuke

App. 33
COMMONWEALTH OF KENTUCKY
8TH JUDICIAL CIRCUIT
WARREN CIRCUIT COURT- DIVISION IV
FAMILY COURT
JUDGE, HON CATHERINE RICE
HOLDERFIELD
CASE NO. 14-CI-00479
IN RE: THE INTEREST OF
R.A.S. III, a minor child
A.K.S., a minor child
ROBBIN NELSON
VS.

PETITIONER

ORDER ON RELOCATION OF STATE

ROBERT ANDREW SHARP,
JR. and HEATHER ANNE
SHARP

RESPONDENTS

A Hearing was held pursuant to Respondent,
Heather Sharp’s objection to Petitioner moving to
Nashville. After hearing evidence the Court overrules
Respondent’s objection. Petitioner shall be allowed to
move to Nashville and the parties shall maintain a sta­
tus quo as relates to visitation.
Entered this 2nd day of November, 2015
/s/ Catherine Rice Holderfield_______
Hon. Catherine Rice Holderfield,
Judge
Warren Circuit Court, Div. IV

App. 34
Tendered by:
/s/ [Illegible]
John H. McCracken
TENDERED
DATE: 10-30-15
McCracken
5/15/14 DISTRIBUTION
John H. McCracken and Associates, PLLC
1823 McIntosh St, Ste. 110
P.O. Box 27
Bowling Green, KY 42102-0027
Robert and Heather Sharp
2448 Old Union Church Road
Bowling Green, KY 42104

App. 35
COMMONWEALTH OF KENTUCKY
8TH JUDICIAL CIRCUIT
WARREN CIRCUIT COURT- DIVISION IV
FAMILY COURT TWO
HON. CATHERINE RICE HOLDERFIELD, JUDGE
CASE ACTION NO. 14-CI-00479
IN RE: THE INTEREST OF
R.A.S. III, a minor child
A.K.S., a minor child

ROBBIN NELSON
PETITIONER
VS.
FINDINGS OF FACT AND
CONCLUSIONS OF LAW AND
JUDGMENT OF DE FACTOR AND
PERMANENT CUSTODY
ROBERT ANDREW SHARP,
JR. and HEATHER ANNE
SHARP
RESPONDENTS
This matter has been brought before the Court
pursuant to a petition for de facto custody status, cus­
tody, visitation and child support of two minor chil­
dren, RAS.,III and A.K.S., and the Court having
reviewed the agreement makes the following findings
of facts and conclusions of law.
FINDINGS OF FACT
1. The Court finds that Robert Andrew Sharp, Jr.
and Heather Anne Sharp are the parents of two minor
children, R.A.S., III and A.K.S. The petitioner, is the
mother of Respondent, Robert Andrew Sharp, Jr. and

App. 36
is the paternal grandmother of the minor children. All
parties live in Warren County, Kentucky.
2. The Court finds that the minor children have
lived with the Petitioner and her husband for a contin­
uous period of more than one (1) year.
3. The Court also finds that Petitioner bee been
the primary financial caregiver for R.A.S., III. and
A.K.S. for a continuous period of more one (1) year.
4. The Court finds that the Petitioner has been
the emotional caregiver for R.A.S., III and A.K.S. for a
continuous period of more than one (1) year.
5. Respondent, Robert Andrew Sharp, Jr., Cur­
rently suffers from a number of medical conditions, in­
cluding reverse narcolepsy and cataplexy, which make
him unable to adequately care for the children on a full
time basis. He is taking medication to help combat his
medical condition, but these medications also have
other side effects that make it unsafe for the children
to be alone with him at this time when under influence
of the medication.
6. Respondent, Heather Anne Sharp, struggles
with depression. She has been unable to bond with the
children since their respective births. These circum­
stances have led Respondents to place the children
with Petitioner to live and use since the children were
just weeks old. Several years ago respondent Heather
Sharp suffered a head injury at Paris Island and still
to this day struggles from this injury.

App. 37
7. The Court finds that the parents hiave signed
a custody agreement granting petitioner sole custody.
The Petitioner has tested that she desires to be the cus­
todian of these children. The Court further finds that
these children have been cared for, nurtured and sup­
ported by Petitioner since these children were weeks
old.
8. The Court finds that the minor children are
well adjusted into the Petitioner’s home and that it is
in their best interest that the Petitioner be designated
as De Facto Custodian and that she be awarded sole
custody pursuant to the testimony received and the
agreement signed by all parties.
9. The Court finds good cause to set child support
for both Respondents at $0 dollars monthly. The Court
further finds that the petitioner has not only been
proving financially for the minor children but also to
each Respondent parent. Good cause exists to deviate
from the child support guidelines.
CONCLUSIONS OF LAW
1. The Court concludes that it has jurisdiction in
this matter and that the parties are properly before the
Court.
2. The Court finds and concludes that the cus­
tody agreement relating to R.A.S., III and A.K.S. is
reasonable and in the best interests of these chil­
dren. Therefore, the Court concludes that Petitioner
Robbin Nelson has satisfied the requirements of KRS

App. 38
403.270(1) and (2) and is granted the status of a de
facto custodian of these minor children.
3. The Court concludes that it is in the best in­
terests of R.A.S., Ill and A.K.S. that permanent sole
custody be granted to Robbin Nelson and that is so or­
dered. The Court concludes that reasonable visitation
will occur by agreement of the parties.
4. The Court concludes that the Petitioner has
sufficient financial means to adequately provide for
these two minor children and the Court believes that
it is appropriate to deviate from the child support
guidelines and that no child support shalt be due from
either of the Respondents.
DECREE

THE COURT HEREBY ORDERS THE FOLLOW­
ING:
1. That the Petitioner, Robbin Nelson shall be
designated the De Facto Custodian of R.A.S., III and
A.K.S.;
2. That the Petitioner, Robbin Nelson is granted
sole custody of R.A.S., III and A.K.S. and that reason­
able visitation will occur by agreement of the parties.
3. That both Respondent’s child support shall be
set at $0 dollars monthly.

App. 39
SO ORDERED THIS 14th DAY OF May, 2014.
/s/ Catherine Rice Holderfield
JUDGE, HON. CATHERINE
RICE HOLDERFIELD,
WARREN CIRCUIT COURT,
DIVISION III
FAMILY COURT
Tendered by:
/s/ [Illegible]
John H. McCracken

App. 40
COMMONWEALTH OF KENTUCKY
8TH JUDICIAL CIRCUIT
WARREN CIRCUIT COURT-DIVISION IV
FAMILY COURT
HON. CATHERINE RICE HOLDERFIELD, JUDGE
CASE ACTION NO. 14-CI-00479
IN RE: THE INTEREST OF
RA.S. Ill, a minor child
A.K.S., a minor child
ROBBIN NELSON
VS.

PETITIONER
AGREEMENT OF DE FACTO
CUSTODIAN CHILD CUSTODY
AND CHILD SUPPORT

ROBERT ANDREW SHARP,
JR. and HEATHER ANNE
SHARP

RESPONDENTS

Comes the Petitioner Robbin Nelson, by Counsel,
and Respondents Robert Andrew Sharp, Jr. and
Heather Anne Sharp, pro se, and enter into the follow­
ing agreement relating to the de facto custody stains of
Robbin Nelson, custody of R.A.S., and A.K.S., minor
children and child support relating to their children:
WHEREAS, the parties agree that Robert Andrew
Sharp, Jr. and Heather Anne Sharp are the parents of
RA.S., Ill and A.K.S. and that Robbin Nelson is the pa­
ternal grandmother of these children. The parties
hereto wish to enter into an agreement relating to the
above which all parties agree is in the best interests of
the minor children.

App. 41
1. The Respondents Robert Andrew Sharp, Jr.
and Heather Anne Sharp are the parents of R.A.S., III,
and A.K.S., minor children. Nelson is the mother of
Robert Andrew Sharp, Jr. and the paternal grand­
mother to R.A.S., III and A.K.S.
2. The parties agree that both R.A.S., III and
A.K.S. have resided with Robbin Nelson since they
were weeks old and that Robbin Nelson has primarily
provided for these minor children’s financial and nur­
turing care. The parties agree that Robbin Nelson sat­
isfies the requirements of KRS 403.270(1) and (2) to be
de facto custodian of both minor children and all par­
ties agree that she has that status for these children.
The children have resided with Petitioner for more
than a year and Petitioner has provided for their finan­
cial needs for more than one year.
3. The parties agree that due to the circum­
stances surrounding medical issues with Robert An­
drew Sharp, Jr. and issues that Heather Anne Sharp is
experiencing are such that it is in the best interests of
R.A.S. Ill and A.S.K. that sole custody should be
granted to Robbin Nelson. All parties believe that this
is in the children’s best interest.
4. The parties agree that the Respondents shall
have liberal visitation with R.A.S., III and A.K.S. as
agreed upon by the parties.
5. The Petitioner, Robbin Nelson, is a hospital
consultant, who is also a registered nurse. The parties
agree that her income is sufficient to meet all of the
needs both of these children and they agree that no

App. 42
child support shall be payable by either Respondent.
The parties agree that it is appropriate to deviate from
the child support guidelines due to Petitioner’s income
level.
This the 30th day of April, 2014.
/s/ [Illegible]
john h. McCracken
john h. McCracken and
ASSOCIATES, PLLC
1823 McIntosh St., Ste. 110
P.O. Box 27
Bowling Green, KY 42102-0027
270-783-8088
VERIFICATION
I, Robbin Nelson, have read the foregoing state­
ment and do hereby verify that they are true to my best
knowledge and belief.
/s/ Robbin Nelson
ROBBIN NELSON
STATE OF KENTUCKY
COUNTY OF WARREN
Acknowledged and sworn to before me by Robbin
Nelson, this the 23rd day of April, 2014.
/s/ Melinda Renee Fulcher
NOTARY PUBLIC
MY COMM. EXPIRES:
July 21. 2017

App. 43
VERIFICATION
I, Robert Andrew Sharp, Jr., have read the forego­
ing statement and do hereby verify that they are true
to my best knowledge and belief.
/s/ Robert Andrew Sharp
ROBERT ANDREW
SHARP, JR.
STATE OF KENTUCKY
COUNTY OF WARREN
Acknowledged and sworn to before me by Heather
Anne Sharp, this the 23rd day of April, 2014.
/s/ Melinda Renee Fulcher
NOTARY PUBLIC
MY COMM. EXPIRES:
July 21. 2017

App. 44
VERIFICATION
I, Heather Anne Sharp, have read the foregoing
statement and do hereby verify that they are true to
my best knowledge and belief.
/s/ Heather Anne Sharp_____
HEATHER ANNE SHARP
STATE OF KENTUCKY
COUNTY OF WARREN
Acknowledged and sworn to before me by Heather
Anne Sharp, this the 23rd day of April, 2014.
/s/ Melinda Renee Fulcher
NOTARY PUBLIC
MY COMM. EXPIRES:
July 21. 2017

